                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                     Inspection of
                                                 Embassy Dakar, Senegal


                                              Report Number ISP-I-11-46A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                       Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents

Key Judgments                                                   1
Context                                                         2
Executive Direction                                             3
   Mission Strategic Resource Plan Process                      3
   Entry-Level Officers                                         4
   Managing Growth                                              4
   Guinea-Bissau                                                4
Policy and Program Implementation                               6
   Political and Economic Affairs                               6
   Guinea-Bissau                                                7
   Foreign Assistance                                           8
   Law Enforcement                                              8
   Public Diplomacy                                             9
   International Broadcasting                                  11
   Consular Affairs                                            11
Resource Management                                            16
   Management Overview                                         17
   General Services                                            18
   Facilities Maintenance                                      20
   Safety, Health, and Environmental Management Program        21
   International Cooperative Administrative Support Services   23
   Human Resources                                             24
   Financial Management                                        27
   Information Management                                      27
Quality of Life                                                31
   Health Unit                                                 31
   Community Liaison Office                                    32
   Equal Employment Opportunity                                32
   International School                                        32
   Employee Association                                        33
Management Controls                                            34
List of Recommendations                                        38
Informal Recommendations                                       40
Principal Officials                                            42
Abbreviations                                                  43




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments

    •     Executive leadership at Embassy Dakar is dynamic and engaged on a strategic and
          personal level, and, consequently, the front office enjoys broad popular support across all
          embassy sections and agencies. However, systemic managerial and security concerns
          have not received sufficient front office oversight and attention to enable these sections to
          effectively manage the burgeoning mission growth.
(b) (5)




    •     Senior embassy management excels at leveraging its inclusive communications style to
          seek consensus wherever possible within the embassy community. This approach is less
          successful when clear direction is required to establish priorities, ensure accountability,
          and resolve interagency differences of opinion.

    •     Embassy Dakar operates in a high-risk environment for waste, fraud, and
          mismanagement. The Office of Inspector General (OIG) team identified serious internal
          control vulnerabilities in a number of areas, including property and fuel.

    •     Embassy Dakar manages a large and complex foreign assistance budget that includes
          annual program expenditures approaching $110 million and a recently signed $540
          million Millennium Challenge Corporation compact. Although the Ambassador provides
          broad program oversight for the mission foreign assistance effort, communication within
          the mission’s program implementing community is uneven.



The inspection took place in Washington, DC, between January 10 and 28, 2011, and in Dakar,
Senegal, between January 30 and February 16, 2011. (b) (6)




                                             1
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        Located on the west coast of Africa, Senegal is roughly the size of South Dakota and has
a population of 12.5 million. A French colony until 1960, this predominantly Muslim country
has proved to be a reliable U.S. partner and has cooperated consistently with the United States on
a wide range of issues, including peacekeeping, counterterrorism, and counternarcotics.
Although Senegal has a long tradition of being both stable and democratic, the presence of a
low-level separatist insurgency in the southern part of the country since the 1980s continues to
be a security concern. The persecution of journalists and suppression of political opposition in
recent years have raised questions about the government’s commitment to that tradition. In
addition, corruption, much of it involving the most senior levels of government and the
President’s inner circle, is undermining economic growth and Senegal’s ability to attract
investments.

        U.S. Government priorities in Senegal include promoting democracy, good governance,
and national reconciliation; achieving sustained economic growth; combating transnational crime
and terrorism and building regional stability; maintaining food security and managing
environmental challenges; improving health care and education; and promoting understanding
through Muslim outreach and public diplomacy. Embassy Dakar administers a complex
assistance portfolio that in FY 2010 included approximately $110 million in direct program
expenditures and a $540 million Millennium Challenge Corporation compact signed in 2009.

        Embassy Dakar is a large and rapidly expanding mission with growing regional
responsibilities. At the time of the previous OIG inspection in 2006, there were 104 direct-hire
American positions and 302 local staff from 8 agencies in Dakar. The embassy now has 139
direct-hire and 313 local staff from 11 U.S. Government International Cooperative
Administrative Support Services (ICASS) member agencies, currently unevenly spread to
serious overcapacity in 9 office buildings scattered across Dakar. Of the 139 total direct-hire
positions, 42 are USAID and 16 are from the Department of Defense. Construction of the NEC,
scheduled to open in 2013, is progressing on schedule under the direction of four resident Bureau
of Overseas Buildings Operations (OBO) employees. Approximately 5,000 American citizens
live in Senegal.

        The Ambassador to Senegal has been accredited to neighboring Guinea-Bissau since the
Department of State (Department) suspended embassy operations there in 1998. Embassy Dakar
maintains a liaison office in Bissau that is managed by three locally employed (LE) members of
staff and one direct-hire Guinea-Bissau action officer who resides in Dakar and travels on
temporary duty to Bissau. The embassy is now attempting to establish work space for the direct-
hire officer in the Portuguese Embassy in Bissau.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The Ambassador arrived in July 2008, 1 year after the departure of her predecessor, to
assume charge of Embassy Dakar, the fifth-largest mission in Sub-Saharan Africa. She is
charged with leading a large interagency country team with a multiplicity of diverse yet
interconnected objectives, which also functions as a regional hub and provides nearby posts with
security, personnel, facilities maintenance, financial, and technical support, among other
services. She is also accredited to nearby Guinea-Bissau and attributes a high mission priority to
this responsibility. She is scheduled to complete her assignment in July 2011. Now in her last 6
months at post, the Ambassador is popular, involved with the community, very active in public
diplomacy and outreach, and widely respected at all levels.

        The deputy chief of mission (DCM), although relatively new at post (August 2010),
already enjoys support within the embassy community. In this mission of 12 agencies physically
scattered across sprawling and traffic-clogged Dakar, OIG questionnaires also credit the
executive office with successfully instilling a unified, whole-of-government approach to U.S.
policy toward Senegal, particularly at the senior level. At the working level, however, cohesion
is more uneven, and not all mission personnel share the collaborative sense of purpose and high
morale demonstrated by some of their more senior colleagues. A variety of factors appear to
account for this disconnect, including uneven communication across and within agencies and
sections, as well as unrealized—and sometimes unrealistic—quality-of-life expectations
concerning housing, and allowances, as well as commissary and diplomatic pouch services.
Although actively trying to resolve these issues on a personal level, the Ambassador and DCM
have been hard-pressed to find workable solutions to the overall systemic problems.

         The country team is an information-sharing tool at Embassy Dakar. With few exceptions,
all sections and agencies participate at the chief or deputy level. During the two sessions that the
OIG team observed (one chaired by the DCM acting as chargé d’affaires and the second by the
Ambassador after her return), the atmosphere was easy and collegial. The meetings lasted
approximately 1 hour. Although some have criticized country team meetings for their length and
apparent lack of focus, the OIG team saw value in the weekly, whole-of-mission opportunity to
share information across the many agencies represented in Dakar, but it conceded that more
rigorous time management would minimize some participants’ frustration. A smaller, “core”
country team also meets weekly, with participation from all Department section chiefs, except
the management officer, as well as selected agency chiefs. Although the OIG team was unable to
observe a “core” meeting, the DCM described them as more focused on the strategic and policy
levels. Interagency participants confirmed this characterization.

Mission Strategic Resource Plan Process

        Embassy Dakar was starting preparations for its FY 2013 Mission Strategic Resource
Plan (MSRP) during the OIG inspection, and the executive office had just designated the
political section chief, who arrived in summer 2010, as the overall coordinator. The Ambassador
described the previous FY 2012 MSRPs for Senegal and Guinea-Bissau as fully participative
processes, with active and complete participation from herself, the previous DCM, Department
sections, and other agencies. She noted that the resultant strategic goals and objectives enjoyed

                                           3
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

full mission-wide consensus, closely mirrored the internal management of post, and also
reflected the activities of other agencies. Although Embassy Dakar respondents to OIG team
inquiries did not recall using the MSRP document throughout the year as a formal guide for
discussions of priorities and resources, they confirmed that MSRP policy objectives were so
well-known to them that it was “understood” that these objectives were the policy guidelines for
mission programs and initiatives.

Entry-Level Officers

        Most entry-level employees were pleased with the support and guidance they received
from front-line supervisors. However, the newest entry-level specialists and generalists
expressed some frustration that everything about an embassy community was too new for them
to navigate successfully without more hands-on guidance from post management. In response to
this need, some entry-level officers (ELO) proposed to the DCM that he work with them to
create a first- and second-tour officer group for Embassy Dakar. The DCM was responsive to the
idea, and has held his first meeting with the group. Although some of the group’s activities will
include both generalists and specialists, Embassy Dakar also boasts a well-established mentoring
program for administrative specialists, which enjoys active support from the front office. This
program, the initiative of a senior office management specialist, meets regularly and includes
team building and professional development brown bag sessions. The Ambassador and DCM are
also active in and supportive of Equal Employment Opportunity (EEO) objectives.

Managing Growth

        Growth at Embassy Dakar is not a new phenomenon. The mission had already outgrown
the chancery building (acquired in 1977) at the time of the last OIG inspection in 2006, and
American direct-hire staffing has grown significantly since then. Although a NEC is currently
under construction and scheduled for completion in 2013, post management will have to mitigate
the most critical life and safety vulnerabilities in the existing embassy office buildings prior to
the completion of the NEC. Thanks to its location and current stability, Dakar has the reputation
as the most hospitable site in the region for hosting official U.S. personnel. It is already a hub for
various diplomatic support services, and USAID also plans to expand its use as a regional
training center. Given Dakar’s attractiveness for these activities, the OIG team concluded that,
over the years, the Ambassador and her predecessors have been under pressure from the
Department and other agencies, particularly USAID, to approve American direct-hire staffing
increases. This has been caused, in part, by the fact that other regional platforms in politically
stable countries are full to capacity. Consequently, Embassy Dakar has grown at a rate too rapid
for existing mission resources to absorb. The 2012 MSRP Chief of Mission statement discusses
the need for more ICASS staff to support the growth in program positions. The Ambassador
cannot permit continued growth before she has adequate ICASS staff and resources to
accommodate it. Recommendations on this issue are contained in the ICASS Section of this
report as well as its classified annex.

Guinea-Bissau

     The Department suspended operations in Guinea-Bissau in 1998. Since that time, the
Ambassador to Senegal is dually accredited to both countries. Convinced that the United States
                                            4
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

cannot afford to ignore Guinea-Bissau, a country whose institutions are endangered by its lack of
rule of law, narcotics trafficking, and the growing threat of terrorism in the region, the current
Ambassador regards the development of a robust Guinea-Bissau program as one of her highest
policy objectives. With the recent arrival of the new Portuguese-speaking Guinea-Bissau action
officer to the Embassy Dakar political section, the Ambassador hopes to increase visibility and
understanding of the country and its issues through the action officer’s more frequent and
extended travel to Guinea-Bissau. Although the OIG team supports the Ambassador’s objective
in principle, it cautions that Embassy Dakar must secure full Department approval to address
potential life and safety concerns before it extends the action officer’s travel in this nonpresence
country.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political and Economic Affairs

        With leadership from the Ambassador, the embassy’s political and economic sections
share responsibility for reporting on the breadth of Senegal’s challenging political and economic
environment. They fulfill the Department’s many mandated reporting requirements in a
comprehensive manner.

        Both sections enjoy close collaborative relationships with interagency counterparts.
However, the OIG team noted a lack of adequate collaboration between the economic and
political sections on some cross-cutting issues. The team discussed the situation with the front
office, which is aware of the issue and is exploring different strategies to improve the situation.

        Post management expressed frustration over the perceived unevenness of the Foreign
Service Institute (FSI) French language training program and testing unit. In recent months there
have been several delayed arrivals caused reportedly by the need to extend French language
training at FSI in order to meet minimum requirements.

Economic Section

        Dakar’s small economic section provides solid periodic economic reporting and spot
reports. The section is headed by a management-coned economic officer serving in a stretch
position who has been in place for 8 months. For 7 months he was the sole officer until joined 1
month before the inspection by a first-tour economic-coned officer. Three LE staff assistants
provide support: an economic specialist, a Self-Help Program assistant, and an economic clerk.
The section suffered a 10-month gap in leadership prior to the economic chief’s arrival in June
2010. The chief described his early months as focused on “rebuilding” the section’s economic
function.

        Some Washington consumers have expressed a desire for more frequent reports. With a
new officer on board since early January, the economic section chief intends to enhance spot
reporting and coverage of issues outside the capital.

        The section is in the initial planning stages for absorbing the duties and LE staff of the
Foreign Commercial Service, which will close later in the year because of budget cuts. Increased
staff and responsibilities will create new challenges for the section chief and require closer front
office involvement.

        Since the suspension of U.S. Embassy operations in Guinea-Bissau, the section has also
been responsible for reporting on that country based on information obtained from LE staff
resident in Bissau and from visitors. The arrival in Dakar during the inspection of a Guinea-
Bissau action officer (discussed in the Political Section of this report) will eliminate this extra
reporting burden.



                                           6
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The economic section oversees the embassy’s Special Self-Help Program, which received
$80,000 in FY 2010. The Self-Help Program assistant coordinated the initial selection and
vetting of 14 projects. Final decisions are made by a mission-wide committee. Funding is
provided by the Department but administered by USAID, which also acts as the grants authority.

Political Section

        Dakar’s four-person political section produces frequent, well-regarded reporting on a
range of issues of interest to Washington policymakers. The recent WikiLeaks release of at least
three reporting cables from Embassy Dakar has had an impact. The embassy reports Senegalese
President Wade’s anger over a WikiLeaks newspaper article which, although a
mischaracterization, reflected unfavorably on the President. The section’s three American
officers, who are assisted by one LE staff member, all arrived within the past 10 months. For
long stretches during that period, only one officer was present. The arrival during the inspection
of the third American officer, the Guinea-Bissau action officer, ended an 8-month gap in that
position.

        The inspection team reviewed section reporting over the past year and found it to be
balanced and informative. Summaries of many of the reports are posted on Diplopedia, with
links to the full reports. This helpful tool facilitates the dissemination of embassy reporting to a
broader audience.

        The section participates actively in the Law Enforcement Working Group (LEWG) and
helps prepare proposals to build law enforcement capacity in Senegal and Guinea-Bissau. The
section also works closely with USAID on projects involving good governance, including
election preparation in the run-up to the 2012 Presidential election.

Guinea-Bissau

         Since the suspension of U.S. Embassy operations in Guinea-Bissau, the political section
has assumed primary responsibility for political reporting in that nation, including all
congressionally mandated reporting. This has at times imposed an onerous burden, particularly
when only one officer was present. The arrival of the dedicated Guinea-Bissau action officer in
early February should alleviate this problem. This officer, on excursion assignment from the
Bureau of International Narcotics and Law Enforcement, has experience dealing with post-
conflict law enforcement capacity building in Nigeria. Like his predecessor, who departed in
May 2010, he expects to spend half his time in Dakar and half in Bissau. In Dakar, he will
cultivate contacts in embassies and agencies with a presence in Bissau and with others who
travel there frequently. In Bissau, he will concentrate on building the capacity of the resident LE
staff, developing contacts among the diplomatic community and the nascent nongovernmental
organization community, working with Bissau’s law enforcement sector, and identifying
opportunities for U.S. engagement. He also plans to work with the newly opened American
Corner and inventory and examine the status of U.S. Government properties in Bissau.




                                            7
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Foreign Assistance

       Embassy Dakar administers a complex assistance portfolio that in FY 2010 included
approximately $108 million in direct program expenditures. Of that amount, $28 million was for
the Global Hunger and Food Security Initiative; $51 million for the Global Health Initiative (of
which $27 million went to the President’s Malaria Initiative and $1.1 million went to the
President’s Emergency Plan for AIDS Relief); $12 million for basic education (middle school
construction, curriculum improvements, and teacher training); and $6 million for Governance
and Peace activities. The large USAID mission, consisting of 42 direct-hire and 74 LE staff
members, administers the bulk of this assistance.

        In addition, the Millennium Challenge Corporation administers a 5-year $540 million
compact that entered into force in 2010. Its programs focus on irrigation and rural road
rehabilitation.

        Separately, the mission provided Senegal with $1 million in International Military
Education and Training funds and $300,000 in Foreign Military Financing funds (programmed
through the Department of Defense’s Office of Security Cooperation), $1.14 million in
nonproliferation, antiterrorism, demining, and related program funds through the Department’s
Antiterrorism Assistance (ATA) program, and $80,000 through the Department’s Special Self-
Help Program fund.

        The Ambassador provides broad oversight for U.S. Government-funded assistance
programs, with significant input from and coordination with the USAID mission director and
others. Assistance programs support the goals of the MSRP. Relevant agencies and offices
provide mission-wide, sector-specific coordination, but often on an ad hoc basis. In the OIG
team’s discussions with various mission elements, it was unable to identify an overarching
coordination mechanism for all foreign assistance and found that some mission elements
involved in assistance were not fully aware of what other elements were doing. Given the size
and importance of U.S. Government assistance to Senegal, the creation of a mission-wide
coordination mechanism would enhance possible synergies among programs and reduce possible
duplication. The departure in summer 2011 of the Ambassador and USAID director, both of
whom have been deeply engaged in this area, underscores the need for such a mechanism.

Recommendation 1: Embassy Dakar should establish a mission-wide assistance committee
that meets on a regular basis to review and coordinate all foreign assistance plans and proposals.
(Action: Embassy Dakar)

Law Enforcement

        Embassy Dakar hosts the regional Federal Bureau of Investigation’s three-officer legal
attaché office, which is also responsible for 11 other African countries. In addition to cultivating
close working relationships with local law enforcement officials, the office works closely with
and provides logistic support for Paris-based Drug Enforcement Administration and Department
of Homeland Security representatives who are responsible for Senegal and neighboring Guinea-
Bissau. In the absence of a Drug Enforcement Administration representative, the front office

                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

views the legal attaché office as the lead law enforcement agency for counternarcotics in both
countries.

         Dakar’s regional security officer (RSO) oversees an active law enforcement assistance
program that is funded by the Department’s ATA fund. In FY 2010, $1.14 million in ATA funds
provided six training courses for Senegal. The RSO has also reinvigorated the interagency
LEWG, which, before his arrival, met on an irregular basis. He is moving it to monthly meetings,
chaired by the DCM. LEWG members report on their agency’s training plans to deconflict and
share information on sensitive investigations in a secure environment. LEWG also developed the
initial proposal for a major Bureau of International Narcotics and Law Enforcement Affairs
program in Guinea-Bissau that resulted in the assignment of a justice sector advisor to that
country.

Public Diplomacy

        The Embassy Dakar public affairs section (PAS) is appropriately staffed and carries out
an active public diplomacy program that is closely integrated into the MSRP. An experienced
and energetic public affairs officer has a nuanced understanding of Senegal’s public diplomacy
environment and ready access to the Ambassador and DCM. The public affairs officer chairs the
embassy ICASS committee and frequently serves as acting DCM.

         The public affairs officer supervises four direct-hire employees (cultural affairs officer,
information officer, regional English language officer, and regional information resource officer)
and 12 LE members of staff. The regional English language officer serves 16 countries in Africa,
and the regional information resource officer serves 10. During FY 2010, PAS received an
operating budget of $907,000, including $400,000 for programs. PAS offices are located on the
seventh and eighth floors of a building across from the chancery that does not meet fire and
safety standards. The embassy Information Resource Center (IRC) occupies a small converted
apartment on the sixth floor of the same building. Fire and safety issues are discussed in more
detail later in this report.

Programming and Exchanges

        PAS Dakar effectively manages a variety of programs and provides timely reporting in
the Mission Activity Tracker. PAS has paid particular attention to assisting Senegal’s talented,
but economically disadvantaged secondary school students through the Access Microscholarship
Program to bolster English language training. Currently participating in the program are 585
students from throughout the country. PAS works closely with other mission elements to select
participants for a number of professional development and academic programs, including the
Fulbright, Hubert H. Humphrey, and International Visitor Leadership programs. In the past 6
months, PAS managed two major performing arts programs that reached large audiences and
generated positive media coverage. PAS also maintains close contact with program alumni
through the Senegalese Alumni Association.

        Embassy Dakar benefits from having an embassy-wide contact database, which is
administered by an embassy LE protocol assistant. All mission elements, including PAS, manage
their contacts through this database.
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Information Outreach

        The IRC is supervised by the regional information resource officer and managed by an
LE center director and one assistant. In addition to office space for three employees, the IRC
houses small reference book and periodical collections, eight computer terminals with Internet
access for visitor use, and seating capacity for a maximum of 25. Educational advising services
are also provided at the IRC by one LE staff assistant who also serves as the alumni coordinator.

        Despite the space limitations, each month the IRC serves approximately 600 embassy
contacts, primarily university students and professionals. The IRC’s current location in
downtown Dakar near universities and the target audience is ideal and is a major factor in the
consistently high attendance numbers. The situation will change, however, following the move to
the NEC, which will be located in the outskirts of town near the airport. The embassy does not
currently have an American Corner in Dakar, and PAS is now considering options for
establishing one that could continue to serve key academic audiences after the move to the NEC
in 2013. The inspection team supports this strategy.

        PAS has established three regional American Corners in Senegal and shortly before the
inspection opened a fourth in neighboring Guinea-Bissau. The IRC coordinates the information
services of all four facilities. The three American Corners in Senegal are active and function
through memoranda of understanding with local cultural centers that are managed by the
Ministry of Culture.

         In its information outreach effort, PAS maintains a realistic balance between electronic
and nonelectronic media. PAS produces a monthly French language magazine entitled
Panorama, which highlights American social and political themes and recent embassy events and
is distributed both electronically and in hard copy. PAS maintains contact with younger
audiences through social media, including Facebook, and has emerged as an innovative
participant in Department video Web chats on a variety of MSRP themes in English and French.
One recent video Web chat included more than 1,300 Senegalese participants. In the regions of
Senegal where Internet usage is less dense, PAS has begun to a move toward using mobile phone
text messaging to provide information services to key audience members. PAS recently initiated
a program that draws on the French language and experience of embassy officers as guest
speakers at institutions throughout Senegal.

Grants Management

       Both the public affairs and cultural affairs officers have grants authority and have
received grants management training. One LE assistant manages the grants files. During FY
2010, PAS administered 45 small grants from a Department allocation of approximately
$150,000. A sampling of the PAS grant files indicates that they are fully documented and have
been entered into the Grants Database Management System. As noted earlier in this report, the
Special Self-Help small grants program is administered through USAID.




                                         10
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Petty Cash

         PAS currently does not have petty cash authority and must request funds from the
embassy cashier for each individual expenditure, no matter how small. Given the frequent need
to make petty cash expenditures to support PAS programs, this is not an efficient use of embassy
staff time. The PAS LE program support assistant who maintains public diplomacy budget and
grant records should also receive appropriate additional training to become certified as a sub-
cashier and maintain a small petty cash fund for PAS use.

       Informal Recommendation 1: Embassy Dakar should establish a subcashier position
       within the public affairs section and provide appropriate training.

Embassy Media Relations Policy

        Although Embassy Dakar has on file a 2008 mission policy memorandum for managing
relations with the media, this policy is currently not being implemented. The memorandum states
that PAS is the designated office for managing formal media contacts for all mission elements
under Chief of Mission authority. However, in practice, both American and LE representatives
from a number of mission elements engage the media independently and without prior
consultation with PAS. This has resulted in misstatements by mission representatives that caught
the embassy by surprise. The confusion that this creates within the Senegalese public undercuts
the embassy’s public diplomacy effort.

Recommendation 2: Embassy Dakar should fully implement a media policy that requires all
mission elements to coordinate media contact with the public affairs office. (Action: Embassy
Dakar)

International Broadcasting

       The International Broadcasting Board maintains a small regional Voice of America
bureau in Dakar, consisting of one direct-hire correspondent and one LE staff assistant. The
regional correspondent is responsible for 26 countries in Africa. Voice of America is a member
of ICASS, and the correspondent reports that support from and access to the embassy are good.

Consular Affairs

        Embassy Dakar has a well-managed consular section that, despite many challenges,
efficiently provides a full-range of services. The addition of an assistant regional security officer
investigator (ARSO-I) has greatly enhanced the section’s fraud prevention efforts. While staff
resources are concentrated on safeguarding U.S. borders through careful adjudication of
nonimmigrant visas (NIV) and immigrant visas (IV), as well as providing services to U.S.
citizens, the MSRP goal related to consular excellence does not include a specific performance
indicator for measuring success. The consular section in Dakar processes all IVs for six countries
and covers all consular responsibilities for Guinea-Bissau. In FY 2010, the section processed
9,234 NIVs and 2,563 IVs.


                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Consular Management

        The consular section consists of an FS-02 consular section chief, three ELOs, an ARSO-I,
six LE employees, and as many as five eligible family members (EFM). A consular associate
position is full time, and two consular assistant positions have been divided to attract candidates
and provide employment within the embassy community. The staff is sufficient for the work load
but relies heavily on the availability of family members. Although the workload is not high in
simple numbers, the amount of fraud makes the work challenging and time consuming.

        There is no formal rotation schedule for the ELOs in the consular section. With only three
ELOs, each person performs all consular functions at some time. NIV and IV appointments are
scheduled on alternating days, and each officer conducts interviews on a daily basis. To provide
management opportunities, the consular section chief, while maintaining overall supervision of
the section, has designated each ELO as a unit chief for the duration of his or her tour.

       The consular section chief participates in country team, emergency action committee, and
Visas Viper committee meetings. She meets regularly with the DCM and holds weekly section
staff meetings for all employees. She is also the accountable consular officer for all functions and
complies with all requirements for performing inventories of controlled items and conducting
unannounced cash counts.

        Most embassy cashier functions have been contracted out to a local bank with an on-site
branch. The consular cashier makes daily deposits directly to the bank. Because the bank closes
at 2:00 p.m. each day, the consular section does not have the flexibility to offer afternoon hours
for any service that requires a fee. At the current level of visa demand, this has not been an issue;
however, during periods of peak demand, it could lead to backlogs.

       Informal Recommendation 2: Embassy Dakar should establish and implement a
       procedure to allow the consular cashier to deposit money directly with the Class B
       cashier after 2:00 p.m. on an as-needed basis or on specific days of the week.

Consular Section Space and Access

        The consular section is located on the first floor of the chancery building. Public access to
the section is through a separate door in the same controlled access building as the main embassy
entrance. The consular receptionist has a window in the controlled access area that opens onto
the sidewalk. Applicants are screened by the receptionist to verify that they have an appointment
before being allowed into the main waiting room. A sign in English directs American citizens to
go directly to the reception area without stopping at the window, but at the time of the
inspection, there were no other signs posted. A covered outdoor waiting area provides seating for
approximately 90 persons. The cashier window is located in the outside waiting area. A smaller
indoor waiting area for visa applicants is at the front of the area, and a small waiting area for
American citizens services (ACS) is at the very back of the outside space. The ACS waiting area
was not clearly designated. This issue was raised with the consular section chief and temporary
signs were installed before the end of the inspection.


                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       (b) (5)




Recommendation 3: (b) (5)


       (b) (5)




Recommendation 4: (b) (5)



       The consular work space is cramped but well organized to provide the maximum possible
space per employee. One officer is located near the visa print station to ensure line-of-sight
supervision. EFMs work alternate days and share the same desk space. The scheduled 2013
move to the NEC should alleviate space problems.

        The consular waiting room is adequate for the number of applicants. There are four
interview windows in the visa section and a cashier window in the outer waiting area. The ACS
section has a separate, much smaller, waiting area and one interview window. Public egress from
the waiting area is via two tall turnstiles that are unprotected from the elements and are too
narrow to accommodate open umbrellas.

       Informal Recommendation 3: Embassy Dakar should cover the turnstiles at the
       consular waiting area exit to provide protection from inclement weather.

Nonimmigrant Visas

        The visa referral policy for Embassy Dakar complies with Department worldwide
guidelines. All new employees are required to meet with the consular section chief as part of the
check-in process. The consular section chief briefs employees on the requirements for submitting
a visa referral and maintains signed acknowledgement forms from employees who are authorized
                                         13
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

to make referrals. Embassy personnel are allowed to drop off referral forms any time during
working hours. The NIV worldwide visa referral policy allows consular sections to tailor some
procedures to their specific conditions, such as how referrals should be delivered to the section
and specific hours of delivery. Embassy Dakar has not established any such specific procedures.

       Informal Recommendation 4: Embassy Dakar should establish mission-specific visa
       referral procedures to maximize efficient use of its limited consular resources.

        Embassy Dakar uses a fee-for-service company to schedule NIV appointments and to
provide basic visa information. There is no current backlog in the wait time for visa
appointments. Through the first 4 months of FY 2011, the NIV unit processed 2,451 applicants,
roughly 30 percent less than during the same period in FY 2010. The drop in demand is
attributed to a combination of economic factors and more robust fraud-detection measures.

Immigrant Visas

        Embassy Dakar processes IV and diversity visas for six West African countries,
including Senegal. Although all LE staff members are multilingual, the wide variety of
languages spoken across the region means that many applicants must bring their own interpreters
to the interview. Officers receive only French language training and rely on LE staff to translate
into Wolof and other tribal languages, as well as Portuguese. Some applicants from Mauritania,
which represents only 3 percent of the immigrant workload, speak Arabic rather than French.

        In FY 2010, Embassy Dakar processed a total of 2,563 immigrant applications, of which
885 were diversity visa cases. Over 50 percent of diversity visas were issued to Guineans.
Included in the IV total were 80 special immigrant visas, which are available only to employees
or honorably retired former employees of the U.S. Government abroad who have served
faithfully for at least 15 years. The Ambassador must make a recommendation, based on an
advisory committee review, that there are exceptional circumstances present in the employee’s
case. Recommended cases are referred to the Department for final approval. Because such
special immigrant visa cases must be reviewed and recommended by the employee’s supervisor,
a committee, and the Ambassador, they represent a significant portion of the IV workload in
Dakar.

        Most IVs are based on a family relationship. Immigrant petitions are often filed by
persons who have been physically separated from their relatives for many years. Fraudulent civil
documents are easy to obtain. Poor documentation and a lack of personal knowledge about the
petitioner on the part of the applicant can make it very difficult to establish a legitimate
relationship. In many cases, the only method for verifying a biological relationship is through
DNA testing. Consular regulations require that cheek swabs be collected in the consular section
by an approved lab technician and be witnessed by a cleared American. One EFM position is
dedicated almost exclusively to this function. Appointments for DNA testing are normally
offered two afternoons a week when there are no other applicants in the section. The small ACS
waiting room is used for DNA collections because there is no privacy booth in Dakar. At the
time of the OIG inspection, DNA testing had been expanded to 3 days a week to work off a 3-
month backlog.

                                         14
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

American Citizens Services

        An estimated 5,000 American citizens are resident in Senegal, and a growing number of
tourists visit the country annually. Residents primarily include mission groups, university
students, and dual national Senegalese-Americans.

        The consular section implemented an appointment system for consular report of birth
abroad cases. Such cases tend to be complex and time consuming because of the volume of
information that must be reviewed and verified. Often, only one parent is present and
documentation is poorly prepared. Civil documents are unreliable. Verifying biological
relationships frequently requires the use of DNA testing.

Consular Integrity and Antifraud

        The fraud prevention unit consists of the consular section chief, who is the fraud
prevention manager, one LE staff member, and a newly arrived ARSO-I. The nascent ARSO-I
position has produced dramatic results in a very short period of time. The unit became fully
functional with the addition of a Foreign Service national (FSN) investigator who works directly
with the ARSO-I. The investigator had been a local police investigator and brought with him
valuable contacts and knowledge of the local court system. At the time of the inspection, the
local investigator had been on board for only 1 month and the ARSO-I had already coordinated
with the police on 18 arrests. Initial arrests focused on persons who had presented fraudulent
documents but have expanded to include document producers. One case received some press
coverage. The fraud prevention manager and the ARSO-I work well together. The ARSO-I has
dedicated space in the consular section and is an integral part of the team.

Visas Viper

       The embassy holds Visas Viper meetings monthly and submits all required reports on
time. Visas Viper committee meetings are chaired by the DCM and attended by all appropriate
mission elements. There were no names submitted during the year.




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
       Agency             U.S. Direct-   U.S. Local-   Foreign     Total   Total Funding
                          Hire Staff1    Hire Staff    National    Staff    (in dollars)
                                                        Staff                 FY 2010
State – D&CP                       32             3           20      55       $3,662,600
State – ICASS                      11            23          160     194       $8,566,700
State – Public
Diplomacy                           5                        12       17       $1,156,626
State – Diplomatic
Security2                           5                        10       15       $1,954,482
State – Marine Security             6                         4       10        $242,207
State – Consular                    2              4          3        9        $317,404
State – Representation3                                                           $46,000
State – OBO                         4              1          7       12        $605,000
Foreign Commercial
Service                             1              1          2        4        $335,556
Defense Attaché Office              6                         1        7        $307,104
Defense Security Coop-
eration Agency - DSCA               1                         3        4        $132,000
DSCA – Defense Wide
Program                             2                         2        4        $202,000
FMF                                                                             $300,000
IMET                                                                           $1,010,683
Dept of Agriculture -
FAS                                 2                         3        5        $226,900
Dept of Agriculture -
APHIS                               1                         2        3        $225,756
USAID - OE                         27                        15       42       $6,849,430
USAID – ASP ICASS                                            32       32       $2,919,152
Support
USAID – RIG                         7                         4       11       $1,553,793
USAID – DA4                         6                        22       28     $106,403,503
USAID – International
Disaster Assistance                 2                         1        3       $1,241,638
DOT – FAA                           1                         1        2        $128,045
DOJ - LEGATT                        3                                  3        $284,015
MCC5                                2                         3        5     $535,391,560
BBG – VOA                           1                         1        2        $257,295
Dept of Treasury – OTA              1                                  1          $82,985
Peace Corps                         4                         4        8       $3,797,893
USMC Olmsted Scholar                1                                  1          $50,000
Navy Olmsted Scholar                1                                  1


                                        16
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


        Agency              U.S. Direct- U.S. Local-       Foreign     Total     Total Funding
                            Hire Staff1  Hire Staff        National    Staff      (in dollars)
                                                            Staff                   FY 2010
Navy – FPD                               1                                   1          $65,000
NHRC – PEPFAR                                                      1         1          $37,000
Army – AFRICOM                           2                                   2         $226,000
Army – Strategic
Leadership Division                      1                                   1
DOD – AFRICOM –
Reg Def Coop Office                     1                                    1        $111,000
Totals                                139             32        313        484     $678,689,327

       1. Includes U.S. personal services contract staff.
       2. Includes $190,700 in ATA Program funding.
       3. Includes $7,900 in public diplomacy representational funding.
       4. Includes $106,300,000 in assistance funding.
       5. Includes $535,000,000 in assistance funding.

Management Overview

        Embassy Dakar has an overtaxed management section that faces a number of challenges,
including a large and growing interagency presence, diverse regional support requirements, and
an overcrowded and unsafe physical plant that is scattered across the city. The provision of
administrative support is hampered by environmental realities inherent to this Sub-Saharan
country, as well as cultural impediments to American-style customer service. A seasoned
management officer is leading the section, which includes six first- and second-tour officers in
several crucial positions (i.e., financial management, human resources, and facilities
maintenance). Local employees are accommodating but reluctant to disagree with American
personnel and generally lack training regarding appropriate customer feedback. The embassy has
implemented eServices, but the general perception is that this has actually reduced, rather than
enhanced, customer service. The 2010 ICASS customer satisfaction scores, which predate the
current management officer, were lower than the bureau and worldwide averages in many
categories.

         The management officer and his team understand the importance and challenge of
providing quality customer service, and they have attempted to correct the perception within the
embassy community that management is not attentive to their needs. The physical layout of
management offices and a lack of customer service training among staff members hinder their
efforts.

Recommendation 5: Embassy Dakar, in coordination with the Foreign Service Institute,
should identify customer service training resources and bring customer service trainers to Dakar
to provide training for the management staff. (Action: Embassy Dakar, in coordination with FSI)

Recommendation 6: Embassy Dakar should identify and train a central customer service point
of contact within the management section to field questions and manage requests pertaining to all
areas of management operations. (Action: Embassy Dakar)
                                               17
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The management section has been working with OBO during the construction of a NEC
that will colocate all mission operations. With USAID, the Department of Defense’s Africa
Center for Strategic Studies, the Foreign Agricultural Service, and Millennium Challenge
Corporation now located in an off-site facility, this consolidation will improve security and
mission cohesion.

Embassy Security Program

       A full discussion of Embassy Dakar’s security program, including recommendations, is
contained in the classified annex to this report.

General Services

         The general services office is performing well overall but is under considerable pressure
at this rapidly growing mission. Procurement services for this regional hub are among the busiest
in the Bureau of African Affairs, and the embassy prepared more than 40 new residences for
occupancy during the past fiscal year. A capable supervisory general services officer and two
assistant general services officers oversee a staff of 51 employees. Morale and internal
communication within the general services office are excellent. Most ICASS services, such as
procurement, customs and shipping, and motor pool, received ratings in OIG questionnaires that
were at or above Department averages. In contrast, housing services received scores significantly
below Department averages.

       The office faces the challenges of ensuring oversight at a distant off-site warehouse
compound and providing quality service to customers at annexes and off-site locations. Although
Dakar’s infrastructure is relatively well developed, the local environment is still challenging
from a logistics perspective. Chronic fuel and electricity shortages, for example, place pressure
on embassy logistics capabilities.

Housing

        The housing program has borne the brunt of this mission’s very rapid growth over the
past several years. Since 2009, the embassy’s direct-hire American population has grown by 35
percent, placing particular stress on housing services. Significant additional growth is projected
for the future. At the Ambassador’s request and in response to personnel complaints, the housing
unit successfully moved all but a small handful of employees directly into permanent quarters
during last summer’s transfer season—an impressive feat in this operating environment.
However, this achievement came at the cost of less-than-optimal housing assignments in some
cases and incomplete make readies in others. Embassy employees expressed concerns about the
quality and safety of embassy housing, and housing board appeals are frequent and time
consuming.

       The housing portfolio is made more difficult by the relatively poor quality of locally
available leased properties and the heavy competition with Dakar’s extensive international
community for appropriate housing. In this “landlord’s market,” some of these factors are
beyond the ability of the embassy to correct. Because the mission has a large population of
employees on their first and second tours, or on their first tour in Africa, customers sometimes
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

have unrealistic expectations about housing. The OIG team concluded that the embassy is
managing its housing program efficiently overall but provided informal counseling on housing
board best practices that might ensure better housing assignments and greater customer
understanding of the housing situation at post. Section chiefs and agency heads must also play a
role in educating their employees about these realities.

Procurement and Contracting

        The embassy relies upon noncompetitive blanket purchase agreements to provide staff for
general services operations as well as casual labor for the facilities maintenance unit. The OIG
team found that contractors were performing personal services, as defined by Federal
Acquisition Regulation 37.104, such as procurement and casual labor. Federal Acquisition
Regulation 37.104 prohibits agencies from using contractors to perform personal services. In
addition, Department policy prohibits use of procurement mechanisms to employ casual labor.
The embassy expends approximately $100,000 annually on such labor arrangements through a
number of vendors. These blanket purchase agreements are not advertised or competed
transparently in accordance with procurement regulations. Requirements over $3,000 are not
rotated among vendors as required by the regulations. The embassy may contract for non-
personal services other than casual labor, but it must use a competitive procurement mechanism.
Noncompliance with contracting regulations increases the risk that services will be provided at
higher cost to the government.

Recommendation 7: Embassy Dakar should issue competitive purchase orders or contracts for
non-personal services such as janitorial and freight transportation. (Action: Embassy Dakar)

Recommendation 8: Embassy Dakar should cease using noncompetitive procurement
mechanisms to employ casual labor. (Action: Embassy Dakar)

Furniture and Appliance Pool Implementation

       Embassy Dakar does not have a furniture and appliance pool. Consequently, the 12
agencies at post maintain separate inventories of furniture and appliances with an approximate
acquisition value of $7 million. Whenever an occupant from one agency departs a residence, the
entire set of furniture must be removed and returned to the warehouse, and a similar set of
furniture transferred to another residence. These transfers are inefficient, labor intensive and lead
to higher costs for transportation and damage or loss of furniture in transit, which decreases the
usable lifespan of the items. Transfers also contribute to delayed or incomplete make readies in
an effort to meet shorter deadlines.

        The ICASS council has discussed at length the mechanics of implementing a pool and
has made substantial progress toward this important cost-saving objective. Current obstacles to
furniture pool implementation include concerns that funds provided for furniture may be used for
purposes other than furniture purchases, that allocations may be based on nontransparent criteria,
and that a furniture pool may be too costly for some agencies’ budgets. The OIG team believes
that, with direction from the front office, these obstacles can be overcome. The benefits of a
furniture pool include reduced wear and tear on furniture, lower transportation costs, and a more
efficient make-ready process.
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 9: Embassy Dakar should implement an interagency furniture and appliance
pool. (Action: Embassy Dakar)

Travel

        Embassy Dakar customers indicated that the process of preparing travel orders and
vouchers through the Department’s E2 Solutions travel application is cumbersome and slow.
Department employees generally prepare their own travel orders personally. The OIG team
believes that training a core user group of office support personnel to prepare travel orders on
behalf of their section’s travelers would be more efficient than having employees prepare
documents personally. Currently, users find the system complex and difficult to navigate and
must make help desk calls as travel orders proceed through a lengthy approval chain.

         Informal Recommendation 5: Embassy Dakar should conduct a training session in the
         use of E2 Solutions for American and local-hire office management personnel so that
         they can serve as the primary travel arrangers for their sections.

         Informal Recommendation 6: Embassy Dakar should review routing and approval
         flows in E2 Solutions to minimize the number of steps needed to approve travel
         authorizations and vouchers.

Facilities Maintenance

         The facilities maintenance unit supports the chancery, seven annexes, and about two-
thirds of the residences in the housing pool. The unit consists of a facilities manager on a double-
stretch assignment, 1 local-hire American, and 54 local staff members. In addition to his
facilities maintenance responsibilities at Embassy Dakar, the facilities manager also has regional
responsibilities. The facilities maintenance operation has struggled to support a burgeoning
embassy population. Scores on ICASS customer service surveys have risen marginally, but
residential maintenance services remained well below average in 2010 compared to bureau
averages. OIG questionnaires revealed low scores for residential maintenance as well.

       The facilities maintenance unit employs no local staff with engineering degrees, and
capabilities in the skilled trades are very limited. Local employee supervisors at the middle
management level are few in number and not well trained. The OIG team believes that life safety
and chancery maintenance responsibilities should be the focus of the facility’s medium-term
operations. In the long term, the section must undergo a top-to-bottom reorganization to hire a
substantial number of qualified engineers and plant management staff to support NEC
operations. OBO operations will assist post with this reorganization process closer to the move to
the NEC. The OIG team notes that this reorganization will offer an opportunity to institute other
personnel and organizational changes.

        In 2009, the ICASS council approved the creation of 17 additional positions in facilities
maintenance. Only seven of those positions have been established and filled. Because of attrition,
the facilities unit currently has 17 vacant positions, including a senior engineer position and
several mid-level supervisor positions that could improve the unit’s operating capabilities. With
the uncertain budget scenario and transfers of some responsibilities to the USAID alternative
                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

service provider (see discussion in the ICASS section of this report), only a limited number of
these positions may be filled. Given the critical need to maintain preventive maintenance
programs for the chancery and ensure attention to safety, health, and environmental management
(SHEM) issues, several of these positions are critical.

       Informal Recommendation 7: Embassy Dakar should prioritize its vacant maintenance
       unit positions and seek to fill its top priorities as soon as possible, subject to availability
       of funding.

Safety, Health, and Environmental Management Program

        The embassy’s SHEM program is not functioning effectively. The embassy has
experienced a rash of occupational injuries and fires in the recent past that included a near-fatal
electrocution at the warehouse and two minor fires. The OIG team found numerous safety
hazards that should be addressed on a priority basis. Responsibility for the SHEM program is
shared at all levels of the mission community and tenant agencies and is not the sole
responsibility of the post’s occupational safety and health officer. Foreign Affairs Manual
regulation15 FAM 933.2 requires that the post’s SHEM committee, chaired by the DCM, meet at
least twice a year to review the mission’s safety program and activities. The committee has not
met in at least the past several years. The post did not have on hand a copy of the most recent
Department-funded SHEM inspection, which contains detailed discussions of safety hazards and
corrective actions.

        Occupational safety and health is a particular concern. For example, at high-risk areas
such as the warehouse, the OIG team observed employees not wearing safety equipment such as
acid resistant coveralls, safety shoes, and head and eye protection. Two serious incidents—an
electrocution and a forklift mishap—could likely have been prevented had employees used
proper safety equipment. First aid kits are not maintained in high-risk work areas. Motor vehicles
do not contain mandatory seat belt use signage. First aid training and regular safety training for
embassy staff have not been conducted in recent years. Annual safe driving training required by
the Department’s Motor Vehicle Safety Policy has not been conducted for motor pool and
incidental drivers. Residential safety inspections are not fully documented. In short, the SHEM
program needs front office support and commitment to address and prioritize the safety
improvements that are necessary to mitigate the risk of injury, disability, or death at the
workplace and at residences.

Recommendation 10: The Bureau of Overseas Buildings Operations should conduct a
teleconference with Embassy Dakar management that is attended by the Ambassador or DCM to
discuss the findings of the last occupational safety and health management report and to assist in
prioritizing remediation of post-specific safety hazards. (Action: OBO)

Recommendation 11: Embassy Dakar should require its post occupational safety, health, and
environmental management committee, chaired by the Deputy Chief of Mission, to develop an
action plan to address occupational and residential safety issues on an ongoing basis. (Action:
Embassy Dakar)


                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Residential Post Occupational Safety and Health Certifications

        Prior to signing leases, the embassy must inspect residences and certify in writing that
they are free of critical life safety deficiencies according to 15 FAM 312.6 a. Embassy Dakar
does not have written records that these inspections have taken place. A local-hire safety
inspector does participate in make-ready assessments and provides some general written
comments with most leases. The OIG team believes that conducting safety inspections,
documenting results, and remediating hazards will be a time-consuming process. However, life
safety considerations must take priority over routine residential work orders until this process is
complete.

        The most significant post-specific residential hazards in Dakar are unvented gas water
heaters and nongrounded electrical systems. The OIG team visited a sample of properties in the
housing pool and found an unvented gas water heater in one residence and potential safety
concerns with propane tanks in multiple residences. Because records have not been retained with
respect to electrical safety, the team could not verify that testing on electrical systems in
residences has been conducted to ensure that electrical systems were properly grounded. The
embassy does not conduct post occupational health and safety officer inspections prior to
occupancy for residences serviced by the alternate service provider, currently comprising 42
units in the housing pool. This is a significant omission that places employees at these residences
at potential risk. In sum, the lack of a properly functioning residential safety inspection and
maintenance program increases the risk of an accidental injury or death at an embassy residence.

Recommendation 12: Embassy Dakar should develop and implement a plan to inspect all
residences in Dakar’s housing pool and certify in writing that they comply with minimum life
safety standards by July 1, 2011. These inspections should include results from electrical
grounding tests for each residence. (Action: Embassy Dakar)

Fire Safety – Kleber Annexes

        As noted earlier in this report, construction is under way on a NEC that will provide a
safe and secure replacement for the current embassy buildings. It is therefore not practical to
address all but the most significant fire and life defects at these existing embassy office
structures. Since 1991, the embassy has occupied a mixed residential and office building
complex, known as Kleber I and Kleber II. These buildings never underwent proper fire safety
reviews prior to their conversion into functional office space. In the OIG team’s view, the
continued occupancy of the two Kleber annex office buildings is highly problematic from fire
and life safety standpoints. With respect to fire safety, neither building meets minimum National
Fire Protection Association standards. The eight-story building does not have a fire suppression
system, a fire alarm system, fire doors, or secondary egress. The public affairs section hosts as
many as 600 visitors a month and is located on the eighth floor of this building; more than 100
employees work at the two buildings on a daily basis.

        In the absence of a fire protection and detection system, the embassy can enhance the
protection level for employees by several low-cost methods. Conducting fire drills at the Kleber
buildings on a quarterly basis will serve to familiarize embassy personnel with procedures to
follow in case of future fires. The Kleber buildings do not have steel fire doors to slow the spread
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

of fire and smoke. The installation of fire doors is a low-cost option that would provide an
additional measure of protection, potentially allowing building occupants a chance to evacuate
during a fire. The installation of residential fire alarms in stairwells and office spaces could also
offer at least limited fire detection capabilities, which could be sufficient to allow early detection
of a fire by building occupants. Construction of a secondary egress could be costly or not
feasible and is the responsibility of the building’s landlord rather than the U.S. Government. It
must be explored, however, as an option for protecting embassy employees, local guests, and
property.

Recommendation 13: Embassy Dakar should conduct quarterly fire drills at the Kleber annexes.
(Action: Embassy Dakar)

Recommendation 14: Embassy Dakar should install steel fire doors at all exterior stair landing
doors in the Kleber annexes. (Action: Embassy Dakar)

Recommendation 15: Embassy Dakar should install residential smoke detectors in the
stairwells and occupied offices and residences of the Kleber annex buildings. (Action: Embassy
Dakar)

Recommendation 16: Embassy Dakar should negotiate with the landlord of the Kleber
buildings to construct a secondary egress point for the two Kleber annexes. (Action: Embassy
Dakar)

       Informal Recommendation 8: Embassy Dakar should ensure that all minimum
       standards are met for the proper placement and installation of working fire extinguishers
       throughout the Kleber I and Kleber II annexes, as well as informational signage alerting
       the occupants to their locations. The Embassy should also provide an adequate (10
       percent) supply of functional “backup” fire extinguishers.

Recommendation 17: Embassy Dakar should inspect all electrical outlets in the Kleber annexes
to remediate overloaded electric outlets and other fire hazards. (Action: Embassy Dakar)

International Cooperative Administrative Support Services

        The embassy’s ICASS council includes representatives of the Department of Agriculture,
Department of Commerce, Department of Defense, Department of Justice, Department of State,
Department of Transportation, Department of Treasury, Voice of America, Millennium
Challenge Corporation, Peace Corps, and USAID. The council is chaired by the Department’s
public affairs officer. The council meets regularly, utilizing the ICASS Service Center’s Meeting
Planning Schedule as guidance, and on an ad hoc basis, as needed.

        Following Foreign Affairs Handbook regulation 6 FAH-5 H-222.4, the embassy has
established an ICASS budget committee, which is chaired by the Africa Center for Strategic
Studies’ regional program specialist. The budget committee meets on a regular basis and,
according to the council chair, the budget committee’s chair is the key “mover and shaker” in
ICASS at Embassy Dakar.

                                           23
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         Already experiencing explosive growth and with further growth planned, the ICASS
council is not involved in National Security Decision Directive-38 requests. Also, it is unaware
of its role and responsibility in the National Security Decision Directive-38 process. The OIG
inspectors provided the ICASS council with guidance on the subject.

       Informal Recommendation 9: Embassy Dakar should distribute National Security
       Decision Directive-38 guidance and train International Cooperative Administrative
       Support Services council members on developing cost impacts for National Security
       Decision Directive-38 requests.

Shared Services

       Embassy Dakar followed the Department’s guidelines for consolidating management
services with USAID. The embassy has consolidated all but motor pool, administrative
procurement, and LE staff recruitment under ICASS. According to the Department’s Office of
Management Tier-3 waiver and consolidation status report, the motor pool must be consolidated
by October 1, 2011, unless Dakar can provide a strong business case for not doing so.
Residential leasing has been consolidated, but nonresidential has been delayed until 2013, when
USAID moves into the NEC. Administrative procurement and LE staff recruitment have also
been delayed until colocation in the NEC.

Alternate Service Provider

         In 2009, USAID withdrew from the residential maintenance cost center and established
an alternate service provider cost center, with a contractor providing residential maintenance
services. This provider has taken over responsibility for maintenance at 42 residences, removing
some of the workload from the facilities office and anecdotally leading to service improvements
in some areas. Reported cost center charges per square meter are about half those of the
embassy’s residential maintenance unit. Customers interviewed by the OIG team find having two
service providers confusing, and this arrangement is probably not sustainable over the long term.
The embassy’s ICASS council expects to complete its assessment of the pilot program in a year,
at which point the embassy will determine the program’s future. Assuming that the contractor
meets embassy safety and regional security office requirements, in principle there is no reason
that it could not replace in-house service providers in whole or in part. Embassy Dakar must be
attentive to ensure that electrical safety is a central responsibility for both in-house and contract
maintenance teams.

Human Resources

        A second-tour officer leads the human resources (HR) office. In addition to his HR
responsibilities at Embassy Dakar, he also has regional responsibilities for Nouakchott, Banjul,
and Bissau. He supervises six LE staff members: one language instructor; one full-time EFM
HR assistant, currently vacant; and three part-time EFMs, including an HR assistant and two
training coordinators. One EFM and one LE member of staff have responsibility for American
personnel services, and two LE staff assistants have responsibility for LE staff personnel
services. The human resources officer (HRO) and two of his LE staff members are certified to
perform computer-aided job evaluations.
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The HR office provided mixed services to its ICASS customers. Respondents to the 2010
ICASS customer satisfaction survey ranked American personnel services slightly above bureau
and worldwide averages but ranked LE staff services appreciably lower than bureau and
worldwide averages. When compared with prior surveys, American personnel services scores
equaled or bested those of 2005–2009, whereas scores for LE staff services were lower than
those for the same period.

       The current HRO departs Dakar in July 2011, and his replacement will not arrive until
February 2012. On top of that, the HR specialist has requested leave without pay. During the gap
between HROs, the management counselor will be the acting HRO. Both the management
counselor and HRO believe that a second HRO in Dakar is a necessity, especially given the
regional support provided by the HRO. As the position was not included in Dakar’s FY 2012
MSRP, it was also not included in the FY 2012 Bureau Strategic and Resource Plan. Should
Dakar wish to formally request a second HRO position, they should do so in the FY 2013 MSRP.
The only other option would be to request an entry-level position under the next round of
Diplomacy 3.0.

        To quote one employee, “…there now seems to be a wall between HR and the LE
employee. People never think of going to HR if they have an issue, but to the DCM or
Ambassador.” This sentiment should be instructive to the HR office. As customer service
providers, the HR office should improve communication and operations. As a first step toward
better communication, the HR office should visit the various sections and agencies within the
mission to educate employees on position classification and computer-aided job evaluations;
performance evaluations; the Compensation Modernization and Refinement Initiative; the
Alternative Retirement Plan, when implemented by the Bureau of Human Resources, Office of
Overseas Employment; and the FSN Emergency Relief Fund, to name a few.

       Informal Recommendation 10: Embassy Dakar should require the human resources
       office to hold mini town hall meetings throughout the mission to educate employees on
       human resources issues.

       The OIG team also learned, anecdotally, that the HR office resists communicating
unwelcome news to mission personnel, such as when an employee’s diplomatic ID card is
delayed by Government of Senegal procedures. In such cases, the HR office fails to
communicate the problem directly to the affected employee in order to avoid confrontation. The
HR section must master the art of communication and be proactive rather than reactive.

        There are bright spots. The HRO was commended by Embassy Nouakchott for the
quality of service he provided during his quarterly visits. The awards program functions
appropriately, with nearly 180 awards given to mission employees in 2010, including superior
and meritorious honor, Franklin, cash, extra mile, and safe driving awards. The embassy has a
robust training plan. During the first 11 months of 2010, 170 employees were enrolled in FSI and
FasTrac distance learning and FSI classroom training.

        The evaluation process is generally well managed. Work requirement statements for most
U.S. direct hires were completed as required, and during the 2009–2010 cycle, all Foreign
Service employees used ePerformance even though it was optional. Most, but not all, LE staff
                                         25
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

employee performance reports were completed as required. Twelve facilities maintenance LE
staff employee performance reports, due during September-October 2010, were completed after
the due date. According to the Department’s LE Staff Performance Management Policy
Guidebook, a listing of late employee performance reports must be submitted to the appropriate
agency head and/or DCM or ambassador.

       Informal Recommendation 11: Embassy Dakar should implement procedures in the
       human resources office to provide listings of late employee performance reviews to the
       agency head and/or deputy chief of mission and Ambassador.

Rightsizing

       In preparation for the NEC project, Embassy Dakar prepared a rightsizing review in
2008. Embassy management has since updated the original review four times, most recently on
September 4, 2009.

       The FY 2012 MSRP includes a management goal of strengthening consular and
management capabilities and proposes two additional management positions—an entry-level
information management (IM) specialist and a second facilities manager—to increase the
mission’s capacity to support the expanding customer base.

        As originally designed, the NEC’s ability to accommodate some share of the new growth
anticipated in mission personnel, especially USAID, would have been severely limited. USAID
subsequently funded a fourth floor to house staff who will be providing support to other missions
in the region.

Locally Employed Staff Committee

        The OIG team met with officers of the LE staff committee and a representative from
USAID’s separate committee. The two committees will merge when the Department and USAID
are colocated in the NEC. The committee serves for a 2-year term.

        The president of the committee stated that they meet monthly but will hold extraordinary
meetings as required. Members meet with the management counselor and HRO every other
month and with the front office quarterly. Four issues of concern have been raised with embassy
management and forwarded to the Bureau of Human Resources’ Office of Overseas Employment
for their determination: moving the retirement age from 55 to 60 years of age, paying severance
before retirement, contributing to the Voluntary Savings Retirement Plan, and increasing the
transportation allowance for LE staff in grades FSN-1 to FSN-8.

       The current health insurance provider’s services have steadily worsened, and since the 5-
year contract is set to expire, the mission is now preparing a solicitation to seek a new provider.
The LE staff committee expressed an interest in being consulted during the solicitation process,
from start to finish, which is also a good practice for ensuring transparency during the process.

       Informal Recommendation 12: Embassy Dakar should seek input from representatives
       of the LE staff committee in the solicitation of a new health insurance provider.
                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Financial Management

        Embassy Dakar’s financial management office has encountered challenges in providing
service to its ICASS customers, as evidenced by the 2010 ICASS customer satisfaction survey.
The scores for all financial operations were below bureau and worldwide averages except for
cashiering, which was identical to the worldwide figure. Further, the 2010 scores were below
those of the previous 3 years, 2007–2009.

        Since August 2010, the deputy financial management officer, a first-tour officer, has been
acting as the senior financial management officer, a position that became vacant in July 2010 and
will not be filled until September 2011. Even though the senior financial management officer
position is a one-grade stretch for the deputy, his three tours as an USAID controller have
prepared him for the added responsibility. The financial management officer directly supervises
11 LE staff members and indirectly supervises a regional financial specialist who reports to both
the bureau and the Financial Support and Training Office in Paris. There are three LE staff
certifying officers in the financial management office, which was responsible for FY 2010
allotments of approximately $16.4 million.

        The financial management officer has regional responsibilities for four other African
countries and is supported in his regional responsibilities by one of the financial management
office’s financial specialists, who also provides support in Direct Connect and Consolidated
Overseas Accountability Support Toobox encryption to other African embassies as needed. Both
Embassy Nouakchott and Praia, in response to OIG enquires, were highly appreciative of the
quarterly visits.

        Although lacking the experience of many Class B cashiers, Embassy Dakar’s cashier is
knowledgeable and well trained. Cashier operations are conducted in accordance with financial
management procedures and requirements. The cashier’s accountability was decreased (b)
                                                                                      (5)
                             under a Department pilot program, most cashier functions were
contracted out to ECOBANK. Two further reductions have decreased the accountability to
(b) (5) . The inspectors identified one shortcoming in cashier operations: unannounced
verifications of Guinea-Bissau subcashier funds were not being performed monthly as required
by 4 FAH-3H397.2-3. With the arrival of the Guinea-Bissau action officer, who will be spending
50 percent of his time in Bissau, this shortcoming may be alleviated.

       Informal Recommendation 13: Embassy Dakar should require the Guinea-Bissau action
       officer to conduct monthly unannounced cash counts of Guinea-Bissau subcashier funds.

Information Management

        The IM office must deal with difficult conditions such as multiple daily power cuts and
surges as well as the associated loss of vital equipment. Through this hardship, IM Dakar
provides more than adequate service to a continually growing number of end users. These
services include computer networks and radio and telephone programs, as well as a large mail
and pouch operation. The Information Programs Center is managed by an experienced
information management officer (IMO). The American staff includes an information programs
officer, one IM specialist, an information security officer, and one IM assistant. This IM team
                                         27
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

takes pride in putting customer service first, which is reflected by its consistently high post
ICASS scores. IM Dakar’s scores within the Department’s rating scheme for systems security
(iPost) are often number one within the Bureau of African Affairs. Dakar requested and received
double its previous bandwidth to accommodate increased mandated use of Web-based
applications for reporting functions.

       The IM LE staff consists of four systems personnel, five mail room employees, two
telephone operators, two radio/telephone technicians, and one pouch assistant. Two members of
the Dakar systems staff are members of the worldwide FSN Executive Corp. These employees
perform frequent regional travel to assist other missions with their computer system anomalies.

       In compliance with regulations, the information security officer serves as the information
systems security officer for the unclassified system, and the information programs officer is in
charge of security for the classified system. Both officers are proactive with their duties and
responsibilities.

        The ongoing growth in both American and local staff, particularly within USAID, has led
to an increase in the number of requests for IM support. If this growth continues, the IM team
may need to approach the Department again for greater circuit speed.

Dakar New Embassy Compound

       IM is supporting information services to the OBO team that is currently supervising
construction of the NEC. Through wireless connectivity, 20 new workstations provide OpenNet
capability. The IMO and senior OBO supervisor are optimistic that the move to the NEC will go
smoothly.

         There are currently no plans in the NEC construction for a mission-wide central
uninterrupted power supply (UPS). This is a long-standing OBO policy and is not specific to
Dakar. Although the unclassified systems server area will have a dedicated UPS, Dakar will be
required to supply and maintain individual UPS units for all workstations, possibly 300 units.
Recently, because of battery restriction concerns, UPS units can no longer be shipped by air or
diplomatic pouch. In the future, with no local vendors available for procurement of quality UPS
units, the procurement and shipping of this necessary equipment will be a problem for this and
other missions facing the same situation.

Bissau Liaison Office Communications

        The Bissau Liaison Office is currently staffed by three LE staff assistants. There are three
Internet connected computers for use. U.S. Government employees traveling to Bissau are issued
a FOB (remote password device). Additional equipment has been ordered and will be installed to
accommodate the needs of the recently arrived Guinea-Bissau action officer and the increasing
number of official visits. If additional speed is needed in the future, a more robust Internet
connection will be required, perhaps provided by a Very Small Aperture Terminal. The Bissau
Liaison Office was host to 200 visitors during the past fiscal year, and over 250 visitors are
expected for FY 2011.

                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Dakar Regional Courier Office

        A regional courier office was relocated to Dakar following the drawdown of Embassy
Abidjan in 2008. The office includes two American direct-hire employees and three LE staff
assistants. Airline connections in and out of Dakar are relatively good, and this office is able to
provide adequate support to other missions from this location. The NEC plan now includes a
large pouch vault for regional courier operations.

Embassy Dakar as a Regional Training Center

        Embassy Dakar maintains a large and well-equipped training facility that provides 12
computer training stations and digital videoconference capability. The IMO and other mission
elements use this facility for staff training, and the embassy recently answered an FSI request for
a volunteer mission to host a course for the Africa region in which an FSI instructor will
participate via digital videoconference. Staff training will always be important and necessary in
this region, and plans for the NEC in Dakar also include a training facility. As a cost-saving
measure, in lieu of sending students to Europe or the Washington area for training, the
Department and FSI may want to keep open the option of sending an instructor to Dakar and
using the embassy as a regional training area.

Alternate Command Center

        The definition of an alternate command center is “a location designated and equipped to
be used for command center functions in the event the primary command center becomes
inaccessible or inoperable.” The Ambassador’s residence is now designated as the alternate
command center. Internet capability, an ultra-high-frequency (UHF) city-use radio and high-
frequency (HF) regional-use radio are located there, along with some food and water. The
Ambassador’s residence is directly across from the NEC construction site. For safety, the
alternate command center should eventually be located farther away from the NEC. To provide
better communications service and to meet this safety need when the embassy moves into the
NEC, the IMO and RSO believe that the alternate command center should eventually be
relocated. They are actively pursuing the use of existing vacant office space at a U.S.
Government-owned facility a few miles away. The embassy has obtained new alternate
command center equipment, including HF Radio base station, Broadband Global Area Network
system, laptops, Thuraya World Phones, a conventional phone line, UHF Radios, and medical
supplies; all of this equipment has been tested, but not installed.

        According to 12 FAH-1 H-260 and 12 FAH-1 Appendix 7, the embassy should have an
alternate command center with appropriate equipment. In the event of political unrest or acts of
terrorism, an alternate command center is an important element of an emergency action plan.

Recommendation 18: Embassy Dakar should move its alternate command center operations
from the Ambassador’s residence to a new location and install all necessary equipment. (Action:
Embassy Dakar)




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Documentation

        When the OIG inspection began, completion of the emergency contingency plans was in
progress, but not complete. This delinquency is the result of an 18-month vacancy in the
information programs officer position. To the Dakar IM team’s credit, all documents are now
completed except for the standard operating procedures used in the Information Programs
Center.

       Informal Recommendation 14: Embassy Dakar should test its information management
       contingency plan and complete the information programs center standard operating
       procedures.




                                        30
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Health Unit

        The health unit at Embassy Dakar practices a team approach in its medical services. It
provides primary medical care to embassy staff and dependents as well as emergency care to
local staff members who suffer illness or injury while on the job.

        The presence of a robust health unit is particularly important for Embassy Dakar because
of the poor quality of local medical care. There are relatively few Western-trained medical
personnel in Dakar who can adequately treat secondary medical conditions, which require
specialized knowledge, skills, or equipment. London is the medical evacuation point for patients
requiring such care. There have been 13 medical evacuations from Dakar in the past 12 months.

        The health unit space includes a reception and waiting area, medical records storage,
offices, and examination rooms. It also has a pharmacy that doubles as a medical supply storage
room. The medical laboratory, which is a participant in a Walter Reed Army Medical Center
pilot program on influenza research, offers a far more robust range of in-house diagnostic tests
than is typically available in most stand-alone primary care clinics in the community. The unit is
conveniently located on the chancery compound, but the current space is not large enough to
comfortably accommodate all operations. Moving eventually to the NEC will afford the health
unit the space it needs for a mission of this size.

        The health unit is well staffed with medical personnel, including a regional medical
officer, a regional medical officer/psychiatrist, a regional medical technologist, two nurses (i.e.,
an EFM registered nurse and an LE staff nurse), a resident-American physician assistant, and an
administrative assistant.

         In recent evaluation cycles, the embassy community has expressed dissatisfaction with
the quality of health services. Although the average score on the workplace and quality-of-life
questionnaires was more or less equal to the average score of prior posts the OIG has inspected,
the 2010 ICASS customer satisfaction survey tells a different story. This score was well below
that of both the bureau and worldwide averages and lower than that of the previous 5 years. The
health unit has implemented significant changes to address the underlying causes of this
dissatisfaction during the current 2010–11 ratings cycle and is awaiting the 2011 ICASS survey
results to gauge the success of their efforts.

        Two items that the regional medical managers use on their checklist of things by which to
evaluate RMOs and/or health units are the number of first aid, resuscitation, and defibrillator
training classes given in the past year and the number of people who attended these sessions.
Embassy Dakar’s health unit has not provided any first aid training since 2007.

       Informal Recommendation 15: Embassy Dakar should provide first aid and
       cardiopulmonary resuscitation/automated external defibrillator training to mission
       personnel.


                                          31
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Community Liaison Office

        The embassy currently has two community liaison office coordinator positions, one full-
time and one part-time. The full-time coordinator has been in the position for 5 months and has
had training. The part-time coordinator has worked for 10 months but has not yet had formal
training. There is also a 10-hour-per-week newsletter editor position. The two coordinators work
as a team and have put together an active program of community events and outings. Information
on schools is up to date and thorough. The coordinators attend country team and weekly
management meetings and participate in the emergency action committee.

Equal Employment Opportunity

        Senior management has designated an experienced officer as its EEO counselor, and
EEO information is posted in several locations around the mission. The EEO counselor has taken
the mandatory 32-hour training per 3 FAM 1514.2 a. but is overdue for the yearly refresher
training. At the time of the inspection, the embassy was in the process of identifying a second
EEO counselor to ensure uninterrupted coverage. The EEO counselor has filed reports of three
incidents, none of which was determined to involve EEO issues and all of which were resolved
through discussion at the local level. There are no active EEO cases.
(b)(5)(b)(6)    School
        (b)(5)(b)(6)                             has a good academic reputation within the
embassy community. (b)(5)(b)(6)
                                               The school follows a standard American
curriculum and is accredited with the Middle States Association of Schools and Colleges and the
Council of International Schools. (b)(5)(b)(6)



        The highly regarded director is in the fourth of a 5-year commitment. He acknowledges
that managing growth is his biggest challenge. With the influx of students in recent years from
                                                 (b)(5)(b)(6)

the closure of other West African regional hubs,       has experienced a growth spurt. (b)
(b)(5)(b)(6)                                                                               (5)
                                                                                           (b)
                                                                                           (6)



                                                                            (b)(5)(b)(6)

        In FY 2010, the Department’s Office of Overseas Schools provided          with a $72,000
grant. In the past, the school has also received Department funds for security upgrades. The nine-
member school board must have five American members. The school reserves the last two seats
in each grade for U.S. Government families until September 30 each year.

       The school’s two part-time special education instructors (one full-time equivalent)
provide a limited special needs program. The program will not accept students performing 2
years below grade level. The school has found that some families come with unrealistic
expectations about services in overseas schools. The director urges families to consult early and
                                         32
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

thoroughly before seeking enrollment. The OIG team found that most parents were very satisfied
with the school’s academic program and its extracurricular activities. Some, however, expressed
concern about certain security issues, which are addressed in the classified annex to this report.

Employee Association

        The Embassy Community Welfare Recreational Association (ECWRA) provides its
members a range of services, including the embassy cafeteria, DVD and videotape rental,
Homeward Bound Mail, and the American Club (Club Atlantique), which includes a snack bar
and bar, fitness center, tennis courts, swimming pool, playground, and spring and summer
camps. In 2008, ECWRA incurred a net loss of $16,141 on a total income of $202,859. In 2009
the loss was $16,440 on a total income of $181,460. In its latest financial audit by an
independent firm, it received a qualified opinion, which was in large part because ECWRA failed
to deduct income taxes from local staff salaries for the past 5 years. The estimated liability is
approximately $14,000.

       In addition to full membership available to U.S. direct-hire employees, ECWRA offers
associate, affiliate, and guest memberships to, among others, USAID contractors, American
Fulbright Program participants, Peace Corps Volunteers, third-country diplomats, U.S. teachers
of ISD, and third-country nationals employed by third-country governments, international
nongovernmental organizations, schools, and companies.

       ECWRA has not fully complied with the Department’s Office of Commissary and
Recreation Affairs’ 2010 reporting requirements. The 2009 statement of auditor’s independence
and the 2010 semiannual financial statements are currently outstanding.

       Informal Recommendation 16: Embassy Dakar should prepare the 2009 statement of
       auditor’s independence and the 2010 semiannual financial statements and forward them
       to the Office of Commissary and Recreation Affairs.

       Because of uncertainties surrounding the operations of ECWRA—mainly, who owns the
buildings located on the ISD’s premises—the 2010 ECWRA compliance certification has yet to
be signed by the management counselor and forwarded to the Office of Commissary and
Recreation Affairs.

       Informal Recommendation 17: Embassy Dakar should prepare the 2010 employee
       association compliance certification and forward it to the Office of Commissary and
       Recreation Affairs.

         ECWRA is facing an uncertain future. Club Atlantique is located on property owned by
the (b)(5)(b)(6)                                                                    ECWRA’s
board chair is hopeful that the association can remain where it is until the 2013 move to the
NEC.




                                         33
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        Embassy Dakar operates in a high-risk environment for waste, fraud, and
mismanagement. The Ambassador submitted the annual management controls certification on
July 15, 2010. This certification did not identify any reportable conditions during the previous
year. However, the embassy reported to the Department the loss of $211,000 in nonexpendable
property in 2010 because of suspected malfeasance (b) (6)
This issue was reviewed at the post level by a property survey board. The OIG team identified
internal controls vulnerabilities in several areas, which are discussed in this section. Several of
these—SHEM deficiencies, fire safety, and internal controls on property and fuel—merit
inclusion in the annual statement to the Department on management controls.

Recommendation 19: Embassy Dakar should amend its annual certification of management
controls to the Department of State to note the existence of the main internal controls
deficiencies identified in this inspection report. (Action: Embassy Dakar)

Sales of Fuel Coupons

        The motor pool supervisor dispenses fuel coupons to USAID employees and certain
individuals who work for the embassy. The supervisor accepts cash totaling an estimated
$85,000 a year for such fuel coupons. He stores funds received in a safe and conducts
transactions with the embassy’s banking outsourced accommodation exchange provider. These
transactions are improper and inappropriate. Only officially designated personnel, usually Class
B cashiers, may accept cash collections at an embassy. Handling of cash by employees not
authorized to do so raises the risk of fraud or misuse of U.S. Government funds.

Recommendation 20: Embassy Dakar should cease the practice of selling fuel coupons through
the motor pool. (Action: Embassy Dakar)

Official Vehicle Inventory

        Embassy Dakar’s inventories of official vehicles are not accurate. A spot check of the
Integrated Logistics Management System found that vehicles for OBO were not included in
post’s inventory, vehicles transferred to Guinea-Bissau were still on the inventory, and four
vehicles sold at auction in December still appeared on inventory records. These errors must be
corrected. More broadly, the embassy needs to ensure that its processes for procuring,
registering, and disposing of official government vehicles incorporate internal controls to
maintain accurate vehicle inventories. These controls are necessary to maintain effective
inventory controls on capitalized property.

       Informal Recommendation 18: Embassy Dakar should develop and implement standard
       operating procedures with respect to motor vehicle inventory controls.




                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Daily Trip Ticket Records

         Embassy Dakar’s motor fleet consists of approximately 44 official government vehicles.
The embassy is not preparing and retaining complete motor vehicle and fuel usage paperwork
that is essential to internal controls. For example, a review of a sample of OF-108 trip tickets
found that only 23 of 44 vehicles submitted trip tickets in a 1-month period. Trip tickets are not
usually submitted for vehicles outside the motor pool. Records of fuel consumption were not
always recorded accurately in the OF-108s that were completed. For example, one vehicle
traveled 2,300 miles in a month with only two recorded gasoline refills. The OF-108 is an
essential internal control for documenting fuel consumption and vehicle usage. Without such
documentation, the embassy is vulnerable to theft of fuel or misuse of official vehicles.

Recommendation 21: Embassy Dakar should develop and implement a plan to provide a
monthly report to the deputy chief of mission confirming receipt of OF-108 forms for all official
government vehicles in the mission. (Action: Embassy Dakar)

Monthly Fuel Records

       The embassy is also not maintaining records of monthly fuel consumption for each
vehicle in the fleet. These records allow the embassy to determine vehicle-specific monthly fuel
consumption and detect inappropriate or excessive usage patterns. These records are also
supposed to be reconciled with bulk fuel records to detect potential unexplained shortages.
Preparation of monthly fuel reports (DS-1775) is required by 14 FAH-1 H-814.2. Without
accurate records of monthly fuel consumption, theft of fuel from vehicles, generators, or the
warehouse can go undetected.

Recommendation 22: Embassy Dakar should prepare the DS-1775 monthly fuel consumption
report as required by Department of State regulations and investigate any irregularities
immediately. (Action: Embassy Dakar)

Separation of Duties for Fuel Dispensing

        The embassy does not have in place an adequate separation of duties with respect to fuel
issuance. At the chancery, motor vehicle chauffeurs and incidental drivers fill their own vehicles
and make note of fuel consumption in a green log book maintained by a contract guard.
Chauffeurs are thus responsible for all aspects of use and disposal of fuel—a controls structure
that does not adequately protect against misuse of fuel. At the warehouse, an American local-hire
employee controls the key to the gas pump and oversees fill-ups during working hours. A
stronger internal controls practice is needed at both locations.

Recommendation 23: Embassy Dakar should designate in writing those employees who are
authorized access to the embassy’s fuel pumps and limit pump access only to those personnel.
(Action: Embassy Dakar)




                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Locks for Fuel Tanks and Pumps

        The gas pump at the chancery does not have a locking mechanism. Accordingly, it is
available 24 hours a day, potentially raising the risk of after-hours fuel diversion. The warehouse
diesel and gasoline fuel tanks also do not have locks. Although the diesel pump is locked after
hours, the two main tanks are not locked and can be accessed by warehouse personnel. The lack
of physical safeguards against fuel diversion could increase the risk of fuel theft or loss.

       Informal Recommendation 19: Embassy Dakar should install a lock on the gasoline
       pump at the chancery.

       Informal Recommendation 20: Embassy Dakar should install a lock on the gasoline and
       diesel pumps at the warehouse.

Warehouse Property Management

        As noted earlier, the embassy detected a shortage of nonexpendable property totaling
$211,000 in 2009. The embassy conducted a new baseline inventory of property at the
warehouse and at all residences in 2010. The OIG team noted that complete records of property
disposals prior to 2009 could not be located, even though the embassy conducted auctions and
disposed of property during these periods. The embassy currently employs proper receiving,
inventory control, property management practices, and disposal practices, but this process
requires close and continued American supervision. The warehouse is in an off-site government-
owned compound located a considerable distance from the chancery. Because the NEC will not
include warehouse facilities, the embassy expects to retain its current dilapidated, flood-prone
warehouse. The facility will require additional infrastructure investments in coming years to
meet essential functionality and life safety needs. This issue is addressed further in the classified
annex to this report. The upcoming departure of both the assistant general services officer and a
locally resident American employee further underscores the need for direct American
supervision at the warehouse.

       Informal Recommendation 21: Embassy Dakar should develop a duty schedule for the
       accountable property officer or a designated American alternate to be physically present
       at the warehouse to sign gate passes, observe receipt of property and fuel deliveries, and
       oversee property issuance during designated working hours.

Time and Attendance Reporting

        The OIG team reviewed a sample of time and attendance sheets for facilities maintenance
and warehouse employees and found an excessive pattern of adjustments to the reports. In
several time periods, virtually every employee’s timesheets reported adjustments. Regulations at
4 FAH-3 H-523.3 require that accurate records of each employee’s attendance be kept and that
adjustments be certified by supervisors. Because excessive numbers of adjustments to payroll
records are a red flag for fraud, post must be diligent in determining the causes of these
adjustments and ruling out fraud or abuse as a cause.



                                          36
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 22: Embassy Dakar should conduct a review of the time and
       attendance reports for the facilities maintenance section for the past 3 months, comparing
       paper records in the files with the official timekeeping reported to the Department of
       State and determining the cause of any discrepancies.

Guinea-Bissau Property Accountability

        The U.S. Government has substantial real property assets in Guinea-Bissau, including a
government-owned chancery, Ambassador’s residence, and DCM’s residence. The embassy also
has shipped motor vehicles and nonexpendable property to Guinea-Bissau, including high-value
items such as generators. After the suspension of U.S. Government operations in Bissau in 1998,
the embassy transferred some property records to Embassy Dakar. A review of post’s real
property and personal property inventory systems found that assets were not always recorded in
Embassy Dakar’s systems correctly. In part, this is because the Department does not have an
active post code in the electronic systems for property control for Guinea-Bissau. To ensure
accountability for U.S. Government property in Bissau, the Department’s property management
systems must be updated to allow for tracking of high-value assets, and the embassy must record
custody for this property in the system.

Recommendation 24: Embassy Dakar should establish and implement a written standard
operating procedure for control of personal property and vehicle inventories in Guinea-Bissau
(Action: Embassy Dakar)




                                         37
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Dakar should establish a mission-wide assistance committee
that meets on a regular basis to review and coordinate all foreign assistance plans and proposals.
(Action: Embassy Dakar)

Recommendation 2: Embassy Dakar should fully implement a media policy that requires all
mission elements to coordinate media contact with the public affairs office. (Action: Embassy
Dakar)

Recommendation 3: (b) (5)


Recommendation 4: (b) (5)



Recommendation 5: Embassy Dakar, in coordination with the Foreign Service Institute,
should identify customer service training resources and bring customer service trainers to Dakar
to provide training for the management staff. (Action: Embassy Dakar, in coordination with FSI)

Recommendation 6: Embassy Dakar should identify and train a central customer service point
of contact within the management section to field questions and manage requests pertaining to all
areas of management operations. (Action: Embassy Dakar)

Recommendation 7: Embassy Dakar should issue competitive purchase orders or contracts for
non-personal services such as janitorial and freight transportation. (Action: Embassy Dakar)

Recommendation 8: Embassy Dakar should cease using noncompetitive procurement
mechanisms to employ casual labor. (Action: Embassy Dakar)

Recommendation 9: Embassy Dakar should implement an interagency furniture and appliance
pool. (Action: Embassy Dakar)

Recommendation 10: The Bureau of Overseas Buildings Operations should conduct a
teleconference with Embassy Dakar management that is attended by the Ambassador or DCM to
discuss the findings of the last occupational safety and health management report and to assist in
prioritizing remediation of post-specific safety hazards. (Action: OBO)

Recommendation 11: Embassy Dakar should require its post occupational safety, health, and
environmental management committee, chaired by the Deputy Chief of Mission, to develop an
action plan to address occupational and residential safety issues on an ongoing basis. (Action:
Embassy Dakar)

Recommendation 12: Embassy Dakar should develop and implement a plan to inspect all
residences in Dakar’s housing pool and certify in writing that they comply with minimum life
safety standards by July 1, 2011. These inspections should include results from electrical
grounding tests for each residence. (Action: Embassy Dakar)
                                          38
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy Dakar should conduct quarterly fire drills at the Kleber
annexes. (Action: Embassy Dakar)

Recommendation 14: Embassy Dakar should install steel fire doors at all exterior stair landing
doors in the Kleber annexes. (Action: Embassy Dakar)

Recommendation 15: Embassy Dakar should install residential smoke detectors in the
stairwells and occupied offices and residences of the Kleber annex buildings. (Action: Embassy
Dakar)

Recommendation 16: Embassy Dakar should negotiate with the landlord of the Kleber
buildings to construct a secondary egress point for the two Kleber annexes. (Action: Embassy
Dakar)

Recommendation 17: Embassy Dakar should inspect all electrical outlets in the Kleber
annexes to remediate overloaded electric outlets and other fire hazards. (Action: Embassy Dakar)

Recommendation 18: Embassy Dakar should move its alternate command center operations
from the Ambassador’s residence to a new location and install all necessary equipment. (Action:
Embassy Dakar)

Recommendation 19: Embassy Dakar should amend its annual certification of management
controls to the Department of State to note the existence of the main internal controls
deficiencies identified in this inspection report. (Action: Embassy Dakar)

Recommendation 20: Embassy Dakar should cease the practice of selling fuel coupons
through the motor pool. (Action: Embassy Dakar)

Recommendation 21: Embassy Dakar should develop and implement a plan to provide a
monthly report to the deputy chief of mission confirming receipt of OF-108 forms for all official
government vehicles in the mission. (Action: Embassy Dakar)

Recommendation 22: Embassy Dakar should prepare the DS-1775 monthly fuel consumption
report as required by Department of State regulations and investigate any irregularities
immediately. (Action: Embassy Dakar)

Recommendation 23: Embassy Dakar should designate in writing those employees who are
authorized access to the embassy’s fuel pumps and limit pump access only to those personnel.
(Action: Embassy Dakar)

Recommendation 24: Embassy Dakar should establish and implement a written standard
operating procedure for control of personal property and vehicle inventories in Guinea-Bissau
(Action: Embassy Dakar)




                                         39
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Dakar should establish a subcashier position within
the public affairs section and provide appropriate training.

Informal Recommendation 2: Embassy Dakar should establish and implement a procedure to
allow the consular cashier to deposit money directly with the Class B cashier after 2:00 p.m. on
an as-needed basis or on specific days of the week.

Informal Recommendation 3: Embassy Dakar should cover the turnstiles at the consular
waiting area exit to provide protection from inclement weather.

Informal Recommendation 4: Embassy Dakar should establish mission-specific visa referral
procedures to maximize efficient use of its limited consular resources.

Informal Recommendation 5: Embassy Dakar should conduct a training session in the use of
E2 Solutions for American and local-hire office management personnel so that they can serve as
the primary travel arrangers for their sections.

Informal Recommendation 6: Embassy Dakar should review routing and approval flows in E2
Solutions to minimize the number of steps needed to approve travel authorizations and vouchers.

Informal Recommendation 7: Embassy Dakar should prioritize its vacant maintenance unit
positions and seek to fill its top priorities as soon as possible, subject to availability of funding.

Informal Recommendation 8: Embassy Dakar should ensure that all minimum standards are
met for the proper placement and installation of working fire extinguishers throughout the Kleber
I and Kleber II annexes, as well as informational signage alerting the occupants to their
locations. The Embassy should also provide an adequate (10 percent) supply of functional
“backup” fire extinguishers.

Informal Recommendation 9: Embassy Dakar should distribute National Security Decision
Directive-38 guidance and train International Cooperative Administrative Support Services
council members on developing cost impacts for National Security Decision Directive-38
requests.

Informal Recommendation 10: Embassy Dakar should require the human resources office to
hold mini town hall meetings throughout the mission to educate employees on human resources
issues.



                                           40
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: Embassy Dakar should implement procedures in the human
resources office to provide listings of late employee performance reviews to the agency head
and/or deputy chief of mission and Ambassador.

Informal Recommendation 12: Embassy Dakar should seek input from representatives of the
LE staff committee in the solicitation of a new health insurance provider.

Informal Recommendation 13: Embassy Dakar should require the Guinea-Bissau action
officer to conduct monthly unannounced cash counts of Guinea-Bissau subcashier funds.

Informal Recommendation 14: Embassy Dakar should test its information management
contingency plan and complete the information programs center standard operating procedures.

Informal Recommendation 15: Embassy Dakar should provide first aid and cardiopulmonary
resuscitation/automated external defibrillator training to mission personnel.

Informal Recommendation 16: Embassy Dakar should prepare the 2009 statement of auditor’s
independence and the 2010 semiannual financial statements and forward them to the Office of
Commissary and Recreation Affairs.

Informal Recommendation 17: Embassy Dakar should prepare the 2010 employee association
compliance certification and forward it to the Office of Commissary and Recreation Affairs.

Informal Recommendation 18: Embassy Dakar should develop and implement standard
operating procedures with respect to motor vehicle inventory controls.

Informal Recommendation 19: Embassy Dakar should install a lock on the gasoline pump at
the chancery.

Informal Recommendation 20: Embassy Dakar should install a lock on the gasoline and diesel
pumps at the warehouse.

Informal Recommendation 21: Embassy Dakar should develop a duty schedule for the
accountable property officer or a designated American alternate to be physically present at the
warehouse to sign gate passes, observe receipt of property and fuel deliveries, and oversee
property issuance during designated working hours.

Informal Recommendation 22: Embassy Dakar should conduct a review of the time and
attendance reports for the facilities maintenance section for the past 3 months, comparing paper
records in the files with the official timekeeping reported to the Department of State and
determining the cause of any discrepancies.




                                         41
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                               Name       Arrival Date
Ambassador                                          Marcia S. Bernicat           07/08
Deputy Chief of Mission                             Robert T. Yamate             08/10
Chiefs of Sections:
  Administrative                                  Stephen A. Dodson             08/10
  Consular                                        Mary Emma Arnold              07/10
  Political                                        David D. Whiting             04/10
  Economic                                            Steven J. Perry           06/10
  Public Affairs                                     Robin D. Diallo            08/07
  Regional Security                                   Thad Osterhout            08/10
Other Agencies:
  Foreign Agricultural Service                             Joani Dong           07/10
  Department of Defense/Office of Security
  Cooperation/Defense Attaché Office             LtC. Matthew Sousa             08/09
  Foreign Commercial Service                           John R. Howell           09/10
  U.S. Agency for International Development            Kevin Mullally
  Millennium Challenge Corporation                   Tanya Sutherland           01/10
  Peace Corps                                  Christopher M. Hedrick           09/07
  Africa Center for Strategic Studies                 Elisabeth Fekele          01/09
  Animal and Plant Health Inspection Service                    Vacant
  Federal Aviation Administration                         Moira Keane           03/07
  Federal Bureau of Investigation                     Norman R. Hope            06/10
  Treasury                                                   Ed Roche           09/09
  Voice of America                                        Scott Stearns         07/07




                                       42
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ACS             American citizens services
ARSO-I          Assistant regional security officer-investigator
ATA             Antiterrorism assistance
DCM             Deputy chief of mission
ECWRA           Embassy Community Welfare Recreational Association
EEO             Equal Employment Opportunity
EFM             Eligible family member
ELO             Entry-level officer
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
FSI             Foreign Service Institute
FSN             Foreign Service national
HF              High frequency
HR              Human resources
HRO             Human resources officer
ICASS           International Cooperative Administrative Support Services
IM              Information management
IMO             Information management officer
IRC             Information Resource Center
ISD             International School of Dakar
IV              Immigrant visa
LE              Locally employed (staff)
LEWG            Law enforcement working group
MSRP            Mission Strategic Resource Plan
NEC             New embassy compound
NIV             Nonimmigrant visa
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAS             Public Affairs section
RSO             Regional security officer
SHEM            Safety, health, and environmental management
UHF             Ultra high frequency
UPS             Uniterrupted power supply
USAID           U.S. Agency for International Development




                            43
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
